          Office of Inspector General




September 21, 2006

MICHAEL DALEY
ACTING VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Surface Transportation – Processing and Distribution
         Center Transportation Routes – Pacific Area
         (Report Number NL-AR-06-011)

This report presents results from our processing and distribution center (P&DC)
transportation routes audit (Project Number 06XG012NL001). Our objectives were to
evaluate the effectiveness of P&DC routes and identify opportunities to save money.
This report responds to a request from the Vice President, Network Operations
Management, and focuses on routes controlled by the Pacific Area.

The U.S. Postal Service could save about $3.7 million over the term of existing Pacific
Area P&DC highway contracts by canceling, not renewing, or modifying 84 trips. The
savings represent potential funds that could be put to better use and will be reported as
such in our Semiannual Report to Congress. The Postal Service could eliminate or
modify the trips without negatively affecting service because trip volume was low and
mail could be consolidated on other trips. We recommended the Acting Vice President,
Pacific Area Operations: (1) verify the actual cancellation, modification, or substitution of
the 30 trips identified by Postal Service managers during our audit; (2) verify the actual
cancellation, modification, or substitution of the 42 trips with which Postal Service
officials agreed; and (3) reassess the 12 trips managers feel are still necessary.

Management agreed with our recommendations. They stated that all 72 trip reductions
to which they agreed were in the process of being completed. They also agreed to
reassess the remaining 12 trips. Management’s comments and our evaluation of these
comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Don Spatola
    Steven R. Phelps
Surface Transportation – Processing and Distribution Center                         NL-AR-06-011
 Transportation Routes – Pacific Area


                                        INTRODUCTION
 Background                     Processing and distribution centers (P&DCs) are central
                                facilities that receive and process mail and then distribute it
                                to local service areas over the U.S. Postal Service’s
                                transportation network. The mail processed by P&DCs,
                                including First-Class Mail® and Periodicals, is very time
                                sensitive. As a result, Postal Service transportation
                                managers often must move it from origin to destination
                                overnight and, in making transportation decisions,
                                continually balance on-time service standards with
                                transportation costs. There are approximately 270 P&DCs
                                in the Postal Service network and the Postal Service spends
                                about $1.3 billion annually on surface transportation
                                contracts moving mail to and from these facilities.




  A highway transportation
      contractor waiting
 at the dock at the Anaheim
 Processing and Distribution
           Facility,
        June 8, 2006.




                                On November 22, 2005, the Vice President, Network
                                Operations Management, requested that we audit the
                                scheduled contracted transportation routes supporting
                                P&DCs. Individual Postal Service areas control those
                                routes. This report focuses on routes the Pacific Area
                                controls and responds to the request from the Vice
                                President, Network Operations Management.

 Objectives, Scope,             The objectives of our audit were to evaluate the
 and Methodology                effectiveness of the scheduled contracted transportation
                                routes supporting P&DCs and to identify opportunities to
                                save money.

                                Using Postal Service computer-generated data, we
                                identified 5,851 trips operated under 361 Pacific Area
                                contracts that had at least one P&DC service point. We did



                                                    1
Surface Transportation – Processing and Distribution Center                           NL-AR-06-011
 Transportation Routes – Pacific Area


                                not audit or comprehensively validate the data; however, we
                                noted several data quality weaknesses that constrained our
                                work. For example, some computer files had missing
                                records and inaccurate trailer load volumes. Even though
                                data limitations constrained our work, we were able to
                                support our audit conclusions by applying alternate audit
                                procedures, including source document examination,
                                observation, physical inspection, and discussion with
                                appropriate officials.

                                During our work, we audited 22 facilities, visited 10 facilities,
                                interviewed officials at headquarters and in the Pacific Area,
                                reviewed relevant Postal Service policies and procedures,
                                interviewed managers and employees, and observed and
                                photographed operations. We also evaluated mail volume
                                and the type of mail carried, considered on-time service
                                standards and area initiatives to improve service, and
                                analyzed all 5,851 trips.

                                We conducted work associated with this report from March
                                through September 2006, in accordance with generally
                                accepted government auditing standards, and included such
                                tests of internal controls as we considered necessary under
                                the circumstances. We discussed our observations and
                                conclusions with management officials and included their
                                comments where appropriate.

 Prior Audit Coverage           Since September 2002, the U.S. Postal Service Office of
                                Inspector General (OIG) has worked with the Postal Service
                                to reduce surface transportation. As a result, we have
                                issued 23 audit reports that identified potential savings
                                exceeding $88.7 million over the life of eliminated or
                                reduced transportation contracts. For more detailed
                                information about these audits, see Appendix A.




                                                    2
Surface Transportation – Processing and Distribution Center                             NL-AR-06-011
 Transportation Routes – Pacific Area


                                        AUDIT RESULTS
 Contracted Highway             The Postal Service could improve the effectiveness of
 Transportation Trips           scheduled surface contract routes supporting P&DCs and
                                save about $3.7 million over the term of existing Pacific
                                Area highway contracts by canceling, not renewing, or
                                modifying 84 trips. The Postal Service could eliminate or
                                modify the trips without negatively affecting on-time service
                                because trip mail volume was low and mail could be
                                consolidated on other trips. As indicated below, 27 percent
                                of affected trips expire on June 30, 2007. The other
                                73 percent expire in 2008 or later and have 1 to 3 years
                                remaining.

                                          PROPOSED NONRENEWALS AND CANCELLATIONS
                                                              AFFECTED      NUMBER     ESTIMATED
                                    TRIP CATEGORY               TRIPS       OF TRIPS    SAVINGS

                                 Contracts expiring on
                                 June 30, 2007                 27 percent     23          $991,330


                                 Contracts expiring in
                                 2008 or later                 73 percent     61        $2,658,705

                                 All terminated trips         100 percent     84        $3,650,035

                                The Postal Service transportation network is dynamic and
                                requirements constantly change. As we discussed in the




    Surface transportation
    contractor entering the
       premises of the
     San Francisco P&DC,
        April 26, 2006.




                                objectives, scope, and methodology section of our report
                                Postal Service data has certain limitations. Consequently,
                                our data analysis needed to be tempered by the experience



                                                        3
Surface Transportation – Processing and Distribution Center                              NL-AR-06-011
 Transportation Routes – Pacific Area


                                of on-site transportation managers. Accordingly, throughout
                                our audit we coordinated extensively with plant and area
                                transportation officials and proposed service reductions to
                                them. The officials then reviewed each proposal in
                                conjunction with their own assessment of area-wide network
                                requirements and we discussed our proposals with them.

                                Based on these discussions, we believe the Postal Service
                                could attain savings through service reductions by:

                                    •    Not renewing unnecessary trips that are scheduled to
                                         expire on June 30, 2007.

                                    •    Canceling unnecessary trips that are currently
                                         contracted to expire in 2008 or later and have 1 to
                                         3 years remaining.

                                The savings we identified included savings from
                                nonrenewable trips, plus savings from trip cancellations net
                                of cancellation fees totaling approximately $209,364. The
                                area agreed with the 72 proposals outlined in Appendices B
                                and C and agreed to reassess the 12 trips listed in
                                Appendix D, which plant and district managers feel are still
                                necessary.

                                           PROPOSED CANCELLATIONS AND MODIFICATIONS
                                         CANCELLATION             NUMBER                ESTIMATED
                                           CATEGORY               OF TRIPS   APPENDIX    SAVINGS
                                 Postal Service-identified trip
                                 cancellations or
                                                                     30         B        $902,187
                                 modifications during the
                                 audit

                                 Proposals with which area
                                                                     42         C        2,132,406
                                 officials agreed

                                 Proposals with which plant
                                 and district managers
                                 disagreed                           12         D        615,442
                                 Total                               84                 $3,650,035


                                On August 8, 2006, we conducted a meeting with Pacific
                                Area officials to discuss our report and recommendations.
                                The officials stated they agree with our recommendations
                                and with the trip proposals in Appendices B and C.
                                Regarding Appendix D, they also stated that they agree with
                                the OIG that 10 of the 12 trips can be eliminated without



                                                     4
Surface Transportation – Processing and Distribution Center                         NL-AR-06-011
 Transportation Routes – Pacific Area


                                having a negative impact on service. However, at this point,
                                the local plant and district managers feel the trips are still
                                necessary. The officials specifically agreed to work with the
                                local managers and reassess the 12 trips in Appendix D.

 Recommendations                We recommend the Acting Vice President, Pacific Area
                                Operations:

                                    1. Verify the actual cancellation, modification, or
                                       substitution of the 30 trips management identified
                                       during our audit.

                                    2. Verify the actual cancellation, modification, or
                                       substitution of the 42 trips with which Postal Service
                                       managers agreed and provide the dates action was
                                       taken.

                                    3. Reassess the 12 trips which Postal Service
                                       managers still feel are necessary and cancel or
                                       modify the trips as indicated by the reassessment or
                                       document the reasons for retaining the trips.

 Management’s                   Management agreed with all of our recommendations. They
 Comments                       stated they had already initiated action or were anticipating
                                action on all 30 changes identified in recommendation 1;
                                were currently implementing all 42 changes identified in
                                recommendation 2; and would reassess the 12 proposals
                                identified in recommendation 3. Management also stated
                                they established a target date of November 30, 2006, for the
                                completion of all recommendations. Management’s
                                comments, in their entirety, are included in Appendix E.

 Evaluation of                  Management’s comments are responsive to our findings
 Management’s                   and recommendations. We consider management’s
 Comments                       actions, taken or planned, sufficient to address the
                                recommendations we made in our report.




                                                    5
Surface Transportation – Processing and Distribution Center                                                                                     NL-AR-06-011
 Transportation Routes – Pacific Area




                                                                       APPENDIX A

                                                              PRIOR AUDIT COVERAGE


                                                                                         Number of Trips                 Trips With    Trips With
                                                                        Date Final        Identified for   Potential       Which         Which         Trips
                                                           Report        Report           Elimination or    Savings     Management    Management    Identified by
                    Report Name                           Number         Issued            Modification    Identified     Agreed       Disagreed    Management
Highway Network Scheduling - Pacific Area               TD-AR-02-003    9/24/2002              158         $4,500,417         76            34             48
Highway Network Scheduling - Northeast Area             TD-AR-03-002    11/25/2002             18            776,992         10             8              0
Highway Network Scheduling - Capital Metro Area         TD-AR-03-007    3/28/2003              34           1,144,218        20            14              0
Highway Network Scheduling - New York Metro Area        TD-AR-03-008    3/31/2003              32            470,123         12            20              0
Highway Network Scheduling - Southwest Area             TD-AR-03-010    7/11/2003             249           5,989,082       148           101              0
Highway Network Scheduling - Western Area               TD-AR-03-013    9/23/2003              70           2,721,530        30            40              0
Highway Network Scheduling - Southeast Area             TD-AR-03-014    9/26/2003             101          11,352,881        23            24             54
Highway Network Scheduling - Eastern Area               TD-AR-03-015    9/30/2003             181          10,577,367       128            53              0
Highway Network Scheduling - Great Lakes Area           NL-AR-04-003    3/29/2004              72           5,352,877        48            22              2
BMC Transportation Routes - Great Lakes Area            NL-AR-04-004    9/29/2004              96           7,660,533        49             7             40
BMC Transportation Routes - Eastern Area                NL-AR-05-003    3/17/2005              35           4,791,570        29             6              0
Intermodal Rail and Highway Transportation - Pacific    NL-AR-05-004    3/18/2005               0           1,046,240         0             0              0
 Area
BMC Transportation Routes - Southeast Area              NL-AR-05-005    3/18/2005              52           6,563,582        52             0              0
BMC Transportation Routes - New York Metro              NL-AR-05-007     6/9/2005              16           1,499,371        16             0              0
BMC Transportation Routes - Southwest Area              NL-AR-05-008     8/3/2005              79           7,175,912        76             0              3
BMC Transportation Routes - Capital Metro Area          NL-AR-05-009    9/2/2005               10             803,060        10             0              0
Intermodal Rail and Highway Transportation Between      NL-AR-05-011    9/19/2005               0           1,261,308         0             0              0
 the Pacific and Southeast Areas
BMC Transportation Routes - Pacific Area                NL-AR-05-012    9/21/2005              22           3,123,562        10             2             10
BMC Transportation Routes - Northeast Area              NL-AR-05-013    9/26/2005              41           2,491,133        15             0             26
BMC Transportation Routes - Western Area                NL-AR-06-001    2/14/2006              77           2,235,812        50             2             25

Intermodal Rail and Highway Transportation Between      NL-AR-06-002    3/10/2006               2           1,942,841         2             0              0
the Western and Great Lakes Areas


                                                                                     6
Surface Transportation – Processing and Distribution Center                                                                                     NL-AR-06-011
 Transportation Routes – Pacific Area




                                                                                        Number of Trips                  Trips With    Trips With
                                                                       Date Final        Identified for   Potential        Which         Which         Trips
                                                           Report       Report           Elimination or    Savings      Management    Management    Identified by
                  Report Name                             Number        Issued            Modification    Identified      Agreed       Disagreed    Management
BMC Transportation Routes - Summary Report              NL-AR-06-004   3/28/2006                 0                  0          0             0              0
P&DC Transportation Routes - Great Lakes Area           NL-AR-06-008   7/25/2006              107           5,289,849         73            14             20
Totals                                                        23                            1,452         $88,770,260       877           347            228




BMC − Bulk Mail Center
P&DC − Processing and Distribution Center




                                                                                    7
Surface Transportation – Processing and Distribution Center                                                                                NL-AR-06-011
 Transportation Routes – Pacific Area




                                                                       APPENDIX B

                                        TRIPS IDENTIFIED BY POSTAL SERVICE MANAGERS
                                                      DURING AUDIT WORK


                                 Highway
  Effective       Ending         Contract                                                                 Annual    Estimated
 Date of Last     Date of         Route        Trip                                    Origin to          Budget     Contract   Indemnity     Estimated
   Change         Contract       Number       Number          Recommendation          Destination          Cost       Cost         Fees        Savings
                                                          Reduction of rate,     Los Angeles P&DC to
                                                          mileage and hours on   Santa Clarita P&DC and
   10/29/2005     6/30/2009       91318          N/A      entire contract        return                   $35,474    $97,554     $11,825        $85,729

                                               725 and    Reduction of mileage   Santa Clarita P&DC to
   10/30/2005     6/30/2008       91332          726      on trips 725 and 726   Burbank and return         6,473    11,328       1,079           10,249
                                                          Reduction of rate,     Santa Clarita P&DC to
                                                          mileage, and hours     Reseda Main Office and
   10/30/2005     6/30/2007       91333          N/A      on entire contract     return                    23,654    94,616         0             94,616

                                                          Reduction of hours     Santa Clarita P&DC to
   10/18/2005     6/30/2008       91335          N/A      on entire contract     Tujunga and return         2,207     3,862        368             3,494
                                                                                 Santa Clarita P&DC to
                                                          Reduction of hours     Pacoima Main Office
   10/30/2005     6/30/2007       91337          N/A      on entire contract     and return                12,234    48,936         0             48,936
                                                                                 Santa Clarita P&DC to
                                                                                 Northridge Mail Office
   10/30/2005     6/30/2007       91338          N/A      Eliminate trips        and return                 2,035     8,140         0              8,140
                                                                                 Santa Clarita P&DC to
                                                                                 North Hollywood
                                                          Reduction of hours     Chandler Station and
    9/3/2005      6/30/2008       91339          N/A      on entire contract     return                     7,860    13,755       1,310           12,445




                                                                                 8
Surface Transportation – Processing and Distribution Center                                                                                NL-AR-06-011
 Transportation Routes – Pacific Area




                                 Highway
  Effective       Ending         Contract                                                                Annual     Estimated
 Date of Last     Date of         Route        Trip                                    Origin to         Budget      Contract   Indemnity     Estimated
   Change         Contract       Number       Number          Recommendation          Destination         Cost        Cost         Fees        Savings
                                                            Reduction of rate,   Santa Clarita P&DC to
                                                            mileage, and hours   Canyon Country and
   10/30/2005      6/30/2007      91362          N/A        on entire contract   return                  44,525      178,100      7,421          170,679
                                              19, 20, 21,   Eliminate mileage    Anaheim P&DF to
    7/1/2006       6/30/2008      92642       22, 25, 26    and hours            Orange and return       22,449      39,286         0             39,286
                                                            Eliminate mileage    Bakersfield P&DC to
    7/1/2005       6/30/2009      93230          N/A        and hours            Exeter and return       41,838      115,055     13,946          101,109
                                                                                 Bakersfield P&DC to
                                                                                 Sequoia Pacific
                                                                                 Systems Inc. and
   11/27/2004      6/30/2010      932AQ         1, 2        Cancel contract      return                  14,244      53,416         0             53,416
                                              121, 122,                          Evergreen Eagle SFO
                                              127, 128,                          to San Francisco
   11/26/2005      6/30/2007      940L0       137, 138      Eliminate trips      ISC-PRI and return      39,885      79,770         0             79,770
                                                                                 Sacramento P&DC to
                                                            Eliminate mileage    San Francisco P&DC
    8/6/2005       6/30/2008      95619          N/A        and hours            and return               111,039    194,318        0            194,318

                               Totals            30                                                      $363,917   $938,135*   $35,948*      $902,187

P&DC − Processing and Distribution Center
SFO     − Code for San Francisco Airport
ISC-PRI − International Mail Service Center-Priority Mail Center
P&DF − Processing and Distribution Facility


* Minor rounding difference




                                                                                 9
Surface Transportation – Processing and Distribution Center                                                                       NL-AR-06-011
 Highway Transportation Routes – Pacific Area




                                                                         APPENDIX C

                                       TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                              POSTAL SERVICE MANAGERS AGREED


 Effective                 Highway
  Date of      Ending      Contract                                                                Annual     Estimated
   Last       Date of       Route        Trip                                   Origin to          Budget      Contract   Indemnity    Estimated
 Change       Contract     Number       Number       Recommendation            Destination          Cost        Cost         Fees       Savings

                                                                           Los Angeles P&DC to
  1/7/2006    6/30/2010     90016          101       Eliminate trip        San Francisco P&DC      $113,149   $424,308     $37,716       $386,591*

                                                                           San Francisco P&DC
  1/7/2006    6/30/2010     90016          102       Eliminate trip        to Los Angeles P&DC     113,149     424,308     37,716         386,591*

                                                                           Los Angeles P&DC to
  7/1/2005    6/30/2009     900L1           1        Eliminate trip        Venice Main Office       8,106      22,290         0             22,290

                                                                           Venice Main Office to
  7/1/2005    6/30/2009     900L1           2        Eliminate trip        Los Angeles P&DC         8,106      22,290         0             22,290
                                                                           Los Angeles P&DC to
 10/1/2005    6/30/2009     900L2          121       Eliminate trip        Beverly Hills, CA        9,236      25,398       3,079          22,320*
                                                                           Beverly Hills to Los
 10/1/2005    6/30/2009     900L2          122       Eliminate trip        Angeles P&DC             9,236      25,398       3,079          22,320*

                                                     Eliminate all but     Long Beach P&DC to
  7/1/2005    6/30/2009     90713           7        Sunday                Los Angeles P&DC         9,088      24,992       3,029           21,963

                                                     Eliminate all but     Los Angeles P&DC to
  7/1/2005    6/30/2009     90713           8        Sunday                Long Beach P&DC          9,088      24,992       3,029           21,963


                                                                                   10
Surface Transportation – Processing and Distribution Center                                                                  NL-AR-06-011
 Highway Transportation Routes – Pacific Area



 Effective                 Highway
  Date of      Ending      Contract                                                             Annual   Estimated
   Last       Date of       Route        Trip                                Origin to          Budget    Contract   Indemnity    Estimated
 Change       Contract     Number       Number       Recommendation         Destination          Cost      Cost         Fees       Savings
                                                                        Pasadena P&DC to
 12/17/2005   6/30/2008     91016          121       Eliminate Monday   Worldway AMC            2,905      5,084       484              4,600
                                                                        Worldway AMC to
 12/17/2005   6/30/2008     91016          122       Eliminate Monday   Pasadena P&DC           2,905      5,084       484              4,600

                                                                        Santa Clarita P&DC to
 10/29/2005   6/30/2009     91318           9        Eliminate trip     Los Angeles P&DC        23,732    65,264       7,911          57,354*

                                                                        Los Angeles P&DC to
 10/29/2005   6/30/2009     91318          10        Eliminate trip     Santa Clarita P&DC      23,732    65,264       7,911          57,354*
                                                                        Industry P&DC to
  7/1/2005    6/30/2009     91712           1        Eliminate trip     Worldway AMC            16,560    45,541       5,520           40,021
                                                                        Worldway AMC to
  7/1/2005    6/30/2009     91712           2        Eliminate trip     Industry P&DC           16,560    45,541       5,520           40,021
                                                                        Industry P&DC to
  7/1/2005    6/30/2009     91712          15        Eliminate trip     Worldway AMC            14,128    38,852       4,709          34,142*
                                                                        Worldway AMC to
  7/1/2005    6/30/2009     91712          16        Eliminate trip     Industry P&DC           14,128    38,852       4,709          34,142*
                                                                        Industry P&DC to
  8/6/2005    6/30/2009     91740          19        Eliminate trip     Chino                   12,369    34,014       4,123           29,891
                                                                        Chino to Anaheim
  8/6/2005    6/30/2009     91740          20        Eliminate trip     P&DF                    10,317    28,371       3,439           24,932

                                                                        San Bernardino P&DC
 10/1/2005    6/30/2008     92318           5        Eliminate trip     to Los Angeles P&DC     28,107    49,187         0             49,187

                                                                        Los Angeles P&DC to
 10/1/2005    6/30/2008     92318           6        Eliminate trip     San Bernardino P&DC     28,107    49,187         0             49,187
                                                                        Anaheim P&DF to
  3/4/2006    6/30/2010     92630          13        Eliminate trip     Yorba Linda             5,794     21,726       1,931           19,795
                                                                        Yorba Linda to
  3/4/2006    6/30/2010     92630          14        Eliminate trip     Anaheim P&DF            4,224     15,842       1,408           14,434


                                                                               11
Surface Transportation – Processing and Distribution Center                                                                   NL-AR-06-011
 Highway Transportation Routes – Pacific Area



 Effective                 Highway
  Date of      Ending      Contract                                                              Annual   Estimated
   Last       Date of       Route        Trip                                  Origin to         Budget    Contract   Indemnity    Estimated
 Change       Contract     Number       Number       Recommendation           Destination         Cost      Cost         Fees       Savings
                                                                          Anaheim P&DF to
  3/4/2006    6/30/2010     926L0          13        Eliminate trip       Placentia              4,308     16,156       1,436           14,720
                                                                          Placentia to Anaheim
  3/4/2006    6/30/2010     926L0          14        Eliminate trip       P&DF                   5,620     21,073       1,873           19,200
                                                                          Santa Ana P&DC to
  7/1/2006    6/30/2008     926L6           7        Eliminate Saturday   Haxton Station         1,310      2,292         0              2,292
                                                                          Haxton Station
                                                                          Huntington Beach to
  7/1/2006    6/30/2008     926L6           8        Eliminate Saturday   Santa Ana P&DC         1,295      2,267         0              2,267
                                                                          Anaheim P&DF to
 3/18/2006    6/30/2008     928L1           9        Eliminate trip       Brea                   6,778     11,861       1,130           10,731
                                                                          Brea to Anaheim
 3/18/2006    6/30/2008     928L1          10        Eliminate trip       P&DF                   6,699     11,723       1,116           10,607
                                                                          Santa Barbara P&DC
 11/26/2005   6/30/2007     93011           5        Eliminate trip       to Worldway AMC        31,663    126,650        0           126,650
                                                                          Worldway AMC to
 11/26/2005   6/30/2007     93011           6        Eliminate trip       Santa Barbara P&DC     32,636    130,545        0           130,545

                                                                          Oxnard P&DF to Los
 10/1/2005    6/30/2007     93012           7        Eliminate trip       Angeles P&DC           34,698    138,794        0           138,794

                                                                          Los Angeles P&DC to
 10/1/2005    6/30/2007     93012           8        Eliminate trip       Oxnard P&DF            34,114    136,456        0           136,456
                                                                          Oxnard P&DF to Port
 10/1/2005    6/30/2007     93035          209       Eliminate trip       Hueneme                5,674     22,695         0             22,695
                                                                          Port Hueneme to
 10/1/2005    6/30/2007     93035          210       Eliminate trip       Oxnard P&DF            5,427     21,708         0             21,708
                                                                          Oxnard P&DF to
  8/6/2005    6/30/2007     930L1           7        Eliminate trip       Saviers Station        1,906      7,625         0              7,625
                                                                          Saviers Station to
  8/6/2005    6/30/2007     930L1           8        Eliminate trip       Oxnard P&DF            1,179      4,716         0              4,716
                                                                          Bakersfield P&DC to
 10/1/2005    6/30/2009     932AA          507       Eliminate trip       South Station          7,883     21,679       2,628           19,051

                                                                                  12
Surface Transportation – Processing and Distribution Center                                                                   NL-AR-06-011
 Highway Transportation Routes – Pacific Area



 Effective                 Highway
  Date of      Ending      Contract                                                          Annual     Estimated
   Last       Date of       Route        Trip                              Origin to         Budget      Contract     Indemnity    Estimated
 Change       Contract     Number       Number       Recommendation       Destination         Cost        Cost           Fees       Savings
                                                                      South Station to
 10/1/2005    6/30/2009       932AA        508       Eliminate trip   Bakersfield P&DC        7,883       21,679        2,628           19,051
                                                                      Stockton P&DC to
  7/1/2005    6/30/2009       95239        305       Eliminate trip   Paradise Station       13,507       37,144        4,502           32,642
                                                                      Paradise Station to
  7/1/2005    6/30/2009       95239        306       Eliminate trip   Stockton P&DC          13,722       37,736        4,574           33,162
                                                                      Stockton P&DC to
  7/1/2005    6/30/2009       95239        307       Eliminate trip   Paradise Station        2,772       7,623         924              6,699
                                                                      Paradise Station to
  7/1/2005    6/30/2009       95239        308       Eliminate trip   Stockton P&DC           2,816       7,745         939              6,806

                              Totals       42                                               $704,617*   $2,289,954*   $157,549*   $2,132,406*


AMC − Air Mail Center
P&DC − Processing and Distribution Center
P&DF − Processing and Distribution Facility

* Minor rounding difference




                                                                              13
Surface Transportation – Processing and Distribution Center                                                                        NL-AR-06-011
 Highway Transportation Routes – Pacific Area



                                                                         APPENDIX D

                                       TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                            POSTAL SERVICE MANAGERS DISAGREED



 Effective                 Highway
  Date of      Ending      Contract                                                                  Annual    Estimated
   Last       Date of       Route        Trip                                     Origin to          Budget     Contract   Indemnity    Estimated
 Change       Contract     Number       Number       Recommendation              Destination          Cost       Cost         Fees       Savings

                                                                             Los Angeles P&DC to
  9/3/2005    6/30/2010     90022           5       Eliminate trip           Margaret Sellers P&DC   $27,044   $101,416       $0           $101,416

                                                                             Margaret Sellers P&DC
  9/3/2005    6/30/2010     90022           6       Eliminate trip           to Los Angeles P&DC     27,044     101,416        0            101,416

                                                    Eliminate all days but   Los Angeles P&DC to
  9/3/2005    6/30/2010     90022           9       Monday                   Margaret Sellers P&DC   23,280     87,302         0             87,302

                                                    Eliminate all days but   Margaret Sellers P&DC
  9/3/2005    6/30/2010     90022          10       Monday                   to Los Angeles P&DC     23,280     87,302         0             87,302
                                                                             Santa Ana P&DC to
 1/21/2006    6/30/2008     926L2          11       Eliminate trip           Ontario AMF             22,692     39,711         0             39,711
                                                                             Ontario AMF to Santa
 1/21/2006    6/30/2008     926L2          12       Eliminate trip           Ana P&DC                22,692     39,711         0             39,711
                                                                             Anaheim P&DF to
  9/3/2005    6/30/2008     92830          17       Eliminate trip           Corona                  12,899     22,573       2,150           20,423
                                                                             Corona to Anaheim
  9/3/2005    6/30/2008     92830          18       Eliminate trip           P&DF                     8,337     14,590       1,390           13,200
                                                    Eliminate all days but
 3/18/2006    6/30/2008     928L1           1       Monday                   Anaheim P&DF to Brea     5,611      9,819       935              8,884
                                                    Eliminate all days but
 3/18/2006    6/30/2008     928L1           2       Monday                   Brea to Anaheim P&DF     5,546      9,705       924             8,780*

                                                                                    14
Surface Transportation – Processing and Distribution Center                                                                 NL-AR-06-011
 Highway Transportation Routes – Pacific Area



 Effective                 Highway
  Date of      Ending      Contract                                                            Annual     Estimated
   Last       Date of       Route        Trip                              Origin to           Budget      Contract   Indemnity   Estimated
 Change       Contract     Number       Number       Recommendation       Destination           Cost        Cost         Fees      Savings
                                                                      Oxnard P&DF to Simi
 5/14/2005    6/30/2010       93032        13       Eliminate trip    Valley                   15,252      57,195       5,084         52,111
                                                                      Simi Valley to Oxnard
 5/14/2005    6/30/2010       93032        14       Eliminate trip    P&DF                     16,152      60,570       5,384         55,186

                              Totals       12                                                 $209,830*   $631,309*    $15,867     $615,442



P&DC − Processing and Distribution Center
P&DF − Processing and Distribution Facility
AMF − Air Mail Facility

* Minor rounding difference




                                                                              15
Surface Transportation – Processing and Distribution Center   NL-AR-06-011
 Highway Transportation Routes – Pacific Area


                   APPENDIX E. MANAGEMENT’S COMMENTS




                                                   16
Surface Transportation – Processing and Distribution Center   NL-AR-06-011
 Highway Transportation Routes – Pacific Area




                                                   17
